                                                   U.S. Department of Justice

                                                   Michael J. Sullivan
                                                   United States Attorney
                                                   District of Massachusetts

                                                   John Joseph Moakley United States Courthouse, Suite 9200
Press Office: (617) 748-3139
                                                   1 Courthouse Way
                                                   Boston, Massachusetts 02210
                                                   September 28, 2005

                                      PRESS RELEASE

             P.A. LANDERS, INC. AND COMPANY PRINCIPALS
  INDICTED FOR DEFRAUDING THE COMMONWEALTH ON PAVING PROJECTS

        Boston, MA...A federal Grand Jury returned an Indictment today charging a Plymouth
road construction company and two of its principals with conspiring to defraud the
Commonwealth of Massachusetts and several of its municipalities by generating fake and
inflated asphalt weight tickets on government-funded paving projects.

      United States Attorney Michael J. Sullivan and Theodore L. Doherty, Special Agent in
Charge of the Department of Transportation, Office of the Inspector General in New England,
and Rebecca A. Sparkman, Special Agent in Charge of the U.S. Internal Revenue Service,
Criminal Investigation, announced today that P.A. LANDERS, INC., PRESTON A.
LANDERS, age 56, of Hanover, Massachusetts, and GREGORY R. KEELAN, age 49, of
Pembroke, Massachusetts, were charged in a six-count Indictment with Conspiring to Defraud
the Commonwealth of Massachusetts and Several of its Municipalities, and Using the Mails to
Defraud the Commonwealth of Massachusetts and Several of its Municipalities.

         The Indictment alleges that, from 1996 through at least March, 2003, the defendants
generated fake and inflated asphalt weight tickets on government-funded paving projects on
which P.A. LANDERS, INC. worked. The Indictment alleges that, shortly after the company
built its asphalt production plant in Plymouth in 1995, LANDERS, President of the company,
ordered that a manual override device be installed in the plant’s computer control room. The
Indictment alleges that, at the direction of LANDERS and KEELAN, company employees used
that override device to generate fake asphalt weight tickets, which did not correspond to any
actual asphalt load, as well as inflated asphalt weight tickets, which overstated the amount of
asphalt contained in an actual load.

       The Indictment further alleges that, at the direction of LANDERS, KEELAN, and P.A.
LANDERS, INC., company employees delivered the fraudulent asphalt weight tickets to
government-funded paving projects. The Indictment further alleges that the Commonwealth of
Massachusetts and several of its municipalities relied on those fraudulent weight tickets in
determining the payments to which P.A. LANDERS, INC. was entitled on government-funded
paving projects.

       If convicted on these charges, LANDERS and KEELAN each face up to 20 years’
imprisonment, to be followed by 5 years of supervised release, and a $250,000 fine. P.A.
LANDERS, INC. faces a maximum fine of up to two times the determined loss and restitution.
Additionally, the company could also be debarred from obtaining contracts on future
government-funded public works projects.

        The case was investigated by the U.S. Department of Transportation’s Office of the
Inspector General and the U.S. Internal Revenue Service, Criminal Investigation with assistance
from the Massachusetts Highway Department. The U.S. Attorney’s Office would like to
especially thank the Massachusetts Highway Department for its assistance and support during
this investigation. The case is being prosecuted by Assistant U.S. Attorney Emily R. Schulman
in Sullivan’s Public Corruption and Special Prosecutions Unit and Assistant U.S. Attorney
George B. Henderson, II, in Sullivan’s Civil Division.

       The details contained in the Indictment are allegations. The defendants are presumed to
be innocent unless and until proven guilty beyond a reasonable doubt in a court of law.

Press Contact: Samantha Martin, (617) 748-3139
